72% fi
n

IN THE

Supreme Court of tfie fHntteb £§>tateg
$upre

VINCENT E. BOYD
Petitionerl

ees -

v.

DYLON RADTKE,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

Vincent E. Boyd
Petitioner, pro se
P.O.Box 19033
Green Bay, WI 54307

RECEIVED
FEB 2 3 2021

f<led

Us.

3 ton

QUESTIONS PRESENTED
Should courts have to clearly define, on the record, the proper role of standby counsel in
the proceedings? In other words, should courts engage in a colloquy with pro se defendants and
counsel in order to establish the proper role of standby counsel for the defendant and counsel,
thereby, protecting defendants’ Sixth Amendment right to self-representation? Further, did this
issue warrant the issuance of a Certificate of Appealability?

LIST OF PARTIES
PtyAll parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of all parties to
the proceeding in the court whose judgment is the subject of this petition is as follows.

RELATED CASES
•

Boyd v. Radtke, 2020 WL6481790, U.S. Court of Appeals for the Seventh Circuit. Order
entered September 30, 2020.

•

Boyd v. Eckstein, 2019 WL5298526, U.S. District Court for the Eastern District of
Wisconsin. Order entered October 18, 2019.

•

State v. Boyd, 2017 Wise. App. LEXIS 620, Wisconsin Court of Appeals. Opinion and
Order entered August 23, 2017.

•

State v. Boyd, Appeal No. 2014AP837, Wisconsin Court of Appeals. Opinion and Order
entered February 26, 2015.

•

State v. Boyd, Appeal No. 2013AP684, Wisconsin Court of Appeals. Opinion and Order
entered November 6, 2013.

ii

TABLE OF CONTENTS
QUESTIONS PRESENTED

i

INDEX OF APPENDICES

iv

TABLE OF AUTHORITIES

.v

JURISDICTIONAL STATEMENT

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

1

STATEMENT OF THE CASE

,2

SUMMARY OF THE ARGUMENT.

8

ARGUMENT
I. Boyd’s Sixth Amendment right to self-representation was violated when the trial
court failed to define the role of standby counsel on the record, permitting standby
counsel to usurp Boyd’s autonomy which resulted in an involuntary plea
10
II. The District Court and the Seventh Circuit Court of Appeals should have issued a
COA because the requirements of § 2253 were satisfied.
17
REASON FOR GRANTING PETITION

22

CONCLUSION

.22

CERTIFICATE AS TO FORM AND LENGTH

23

CERTIFICATION AS TO APPENDICES

,23

APPENDIX

.24

iii

INDEX OF APPENDICES
Order of United States Court of Appeals
for the Seventh Circuit, September 30, 2020
Boydv. Radtke, 2020 WL6481790.....................

App. A

Order of United States District Court
Eastern District of Wisconsin, October 18, 2019
Boydv. Eckstein WL5298526............................

App. B

Opinion and Order of Wisconsin Court of Appeals, August 23, 2017
State v. Boyd, 2017 Wise. App. LEXIS 620................................. ......

App. C

Opinion and Order of Wisconsin Court of Appeals, February 26, 2015
State v. Boyd, Appeal No. 2014AP837 .................................................

App. D

Opinion and Order of Wisconsin Court of Appeals, November 6, 2013
State v. Boyd, Appeal No. 2013AP684 .................................................

App. E

Judgment of Conviction

App. F

Plea Questionnaire

App. G

Final Pre-Trial Conference Transcript,
dated March 26, 2012 ........................

App. H

Evidentiary Hearing Transcript,
pgs. 74-77, March 27, 2014 .....

App. I

Motion for Appointment of New Counsel,
dated March 23, 2012 ...............................

App. J

Plea Hearing Transcript,
dated March 27, 2012

App. K

Defendant’s Motion to Withdraw Plea and Appoint New Counsel,
filed May 8, 2012...........................................................................

App. L

Supplement to Defendant’s Motion to Withdraw Guilty/No Contest Plea,
iv

dated June 6, 2012

App. M

Brief in Support of Petition for Writ of Habeas Corpus,
dated August 31, 2018.......................................................

App. N

TABLE OF AUTHORITIES

Cases
Boykin v. Alabama, 395 U.S. 238 (1969).............................................................

14

Davis v. Alaska, 415 U.S. 308, 319 (1974)................................................. .........

21

Delaware v. Van Arsdall, 475 U.S. 673, 679 (1986)............................................

21

Faretta v. California, 422 U.S. 806, 819 (1975)..................................................

10,13-14,

McKaskle v. Wiggins, 465 U.S. 168, 177 (1984).................................................

10-14, 16

Michigan v. Lucas, 500 U.S. 145 (1991)..............................................................

21

Miller-El v. Cockrell, 537 U.S. 322, 336-37 (2003).............................................

17, 21-22

Olden v. Kentucky, 488 U.S. 227, 232 (1988)......................................................

21

Slack v. McDaniel, 529 U.S. 473, 481, 120 S.Ct. 1595, 146 L.Ed.2d 542 (2000)

16-17,

State v. Boyd, 2017 Wise. App. LEXIS 620.........................................................

7

State v. Boyd, No. 2013AP684-CR, Decided November 6, 2013........................

6

State v. Boyd, No. 2014AP837-CR........................................... ...........................

7

State v. Klessig, 211 Wis. 2d 194, 564, N.W. 716 (1997)....................................

6, 14,

State v. Powers, 211 W.Va. 116, 563 S.E.2d 781 (2001).....................................

15

United States v Manske, 186 F.3d 770, 777 (7the Cir. 1999)...............................

19

United States v. Thompson, 359 F.3d 470, 479 (7th Cir. 2004)............................

19-20

CONSTITUTIONAL AMENDMENTS
Sixth Amendment.

10
OTHER AUTHORITIES
v

ABA Standards for Criminal Justice 4-3.9(b)...................................................................
15
John H. Pearson, Mandatory Advisory Counsel for Pro Se Defendants: Maintaining
Fairness in the Criminal Trial, 72 Cal. L. Rev. 697 (1984).................................
12
Megan H. Morgan, Standby Me: Self-Representation and Standby Counsel in a Capital
Case, 16 Cap. Def. J. 367 (2004).......................................................................... .... 11-12
28 U.S.C. 2253(c)(2)......................................................................................................... 1, 15, 17
28 U.S.C. 2254(d)(2) and (e)(1).......................................................................................
1,18

vi

OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States Court of Appeals for the Seventh Circuit appears at
Appendix A to the petition and is unpublished.
The opinion of the United States District Court for the Eastern District of Wisconsin
appears at Appendix B to the petition and is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at Appendix C to the
petition and is unpublished.
The second highest opinion of Wisconsin Court of Appeals appears at Appendix D to the
petition and is unpublished.
The first opinion of the Wisconsin Court of Appeals appears at Appendix E to the
petition and is unpublished.

JURISDICTIONAL STATEMENT
1.) On October 18, 2019, the United States District Court for the Eastern District of
Wisconsin, denied Petitioner’s Petition for a Writ of Habeas Corpus pursuant to 28
U.S.C. 2254, and denied Petitioner a Certificate of Appealability pursuant to 28
U.S.C. 2253(c)(2).
2.) On September 28, 2020, the United States Court of Appeals for the Seventh Circuit
issued an order denying the Petitioner’s application for a Certificate of Appealability
pursuant to 28 U.S.C.2253(c)(2).

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
This case involves the Sixth Amendment right to self-representation. Specifically, how
both the acrimonious appointment of standby counsel and the failure of lower courts to define
the role of standby counsel violates the defendant’s Sixth Amendment right to self­
representation.

2

STATEMENT OF THE CASE
The charges against Vincent Boyd stemmed from allegations that he had sexual contact
with Alison B.W. sometime in 2003.
On March 26, 2012, at the Final Pretrial Conference, Boyd filed a Motion for the
Appointment of New Counsel. The motion asserted that Boyd’s attorney, John Wallace, was not
prepared for trial and, as a result, had repeatedly pressured Boyd to plead guilty against his
wishes. Boyd further asserted that Wallace had “threatened to hit [ Boyd]” and had “told [Boyd]
to shut up over a dozen times.” (App. J:l; App. H:8). The trial court denied Boyd’s motion.
During the same hearing, Boyd asked the court, “Can I just represent myself on this case
then?” (App. H:ll). When the trial court told Boyd that “Wallace is still going to be sitting
there” even if Boyd represented himself, Wallace interjected his own approval of such an
arrangement, stating, “That would be fine with me.” (App. H: 11). The court asked Boyd if he
wanted to do his “own openings and closings,” and Boyd replied unequivocally, “I would like to
completely represent myself on this case.” (App. H:12). The trial court allowed Boyd to
represent himself without engaging in any colloquy regarding this request, and appointed
Wallace as standby counsel despite the objections Boyd had just made concerning Wallace’s
conduct and further involvement in the case. (App. H: 12-13). The court did not discuss or
explain the role or limitations of standby counsel with Boyd or Wallace at that or any other time.
With less than twenty-four hours to prepare for trial, Boyd initiated an inquiry with the
trial court concerning his cross-examination of the state’s witnesses, asking, “Will I be allowed
to question the witnesses myself?” (App. H:13). But before the court could articulate a response
to Boyd’s question, the prosecutor, Ms. Paider, interrupted to voice her own concerns that Boyd
be reminded that he would be bound by the rules of evidence. Ms. Paider further speculated that
3

Boyd was questioning his prior conviction and wanted to have a trial within a trial. (App. H: 1314). Contrary to Ms. Paider’s concerns, Boyd had not filed any motions seeking to have a trial
within a trial.
Nonetheless, Boyd further requested “some latitude in questioning the victim.” (App.
H:15). The trial court immediately cut Boyd off without considering the testimony Boyd was
seeking to introduce, and ruled, “You will get no latitude.” (App. H:15). Even when Wallace,
now Boyd’s standby counsel, attempted to assist the court in ascertaining the nature of the
evidence Boyd sought to introduce, the trial court immediately cut him off as well, reaffirming
its ruling, “You will get no latitude.” (App. H: 15). The trial court did not engage in a balancing
of competing interests or inquire into the nature of the line of questioning Boyd sought to
introduce at that or any other time.
The next day, March 27, 2012, trial was scheduled to begin at 8:30 a.m. As the trial court
began to go over Boyd’s request to represent himself, Wallace immediately interrupted the
proceedings to request a moment to speak to Boyd. (App. K:3). After a discussion held off the
record between Wallace and Boyd, Wallace requested permission to speak with the prosecutor
about a possible resolution. (App. K:3). The court gave Wallace five minutes in which Wallace
negotiated a plea agreement with the prosecutor outside of the courtroom without Boyd being
present. (App. K:3-4). At no time did the trial court ask if Boyd had requested or in any way
authorized standby counsel to engage in seeking a plea agreement or in negotiating a plea
agreement outside his presence, and Boyd was not given an opportunity to speak on the matter.
(App. K:3-4.)
Upon returning from outside the courtroom with the prosecutor, standby counsel
immediately published a plea agreement to the court. However, the terms that Wallace published
4

to the court included plea terms regarding a possible resolution to a pending Langlade County
case, as well as terms wholly different from those Wallace put on the plea questionnaire and
relayed to Boyd and his family. (App. K:4-5; App. G:2). The prosecutor quickly clarified that
those were not the terms and that she has no authority over the Langlade County case, stating,
“Whatever Langlade County wants to do with their case is their decision. It is plea to both
counts, open sentencing.” (App. K:5). Wallace had lied to Boyd and his family about the terms
of the plea agreement.
Without addressing whether standby counsel could act on behalf of the now pro se
defendant, or was even authorized to do so by Boyd, the trial court immediately entered into a
plea colloquy. (App. K:5-9). During the colloquy, Boyd informed the court that he felt “a lot of
pressure” and that he felt like he didn’t have “any other option but to [plead no contest].” (App.
K:6). Boyd further stated, “[...] since coming in yesterday, I feel pressured today” and that he
didn’t think he could he “could get a fair trial.” (App. K:6).
Later in the plea colloquy, the court directed questions to standby counsel, asking, “[...]
Mr. Wallace, are you of the opinion that Mr. Boyd is entering his pea freely, voluntarily, and
intelligently?” (App. K:10). Wallace replied, “[...] Under the circumstances, he’s entering a plea
of no contest and it’s difficult for him.” (App. K:10). Despite Boyd’s stated reluctance to enter
the no contest plea, the trial court accepted Boyd’s plea as being valid. (App. K:10).
Following the hearing, Wallace filled out the plea questionnaire, writing in the incorrect
plea terms, and signing it as Boyd’s attorney, even though he was only standby counsel. (App.
G:2). He included the plea terms regarding the Langlade County case that the prosecutor had
already said were not part of the plea agreement, as well as an agreement to “20 years” which
was not published to the court by either standby counsel or the prosecutor. (App. G:2). Boyd
5

crossed out the portion concerning the Langlade County case and signed the plea questionnaire.
(App. G:2).
On May 8, 2012, Boyd filed a pro se Motion to Withdraw Plea and Appoint New
Counsel, arguing that, on the morning of trial, “Wallace approached Boyd and pressured him to
enter a plea,” and that Wallace “refused to allow Boyd to handle the proceeding himself.” (App.
L: 2-3). The motion further argued that the trial court’s “no latitude” ruling regarding Boyd’s
questioning of the state’s witnesses violated his constitutional rights. (App. L:3).
On June 6, 2012, Boyd filed a Supplement to Defendant’s Motion to Withdraw Guilty/No
Contest Plea, arguing that the trial court failed to follow legal requirements when allowing Boyd
to proceed pro se. (App. M).
On June 7, 2012, a hearing was held and the circuit court denied Boyd’s motions.
On June 16, 2012, the State of Wisconsin, Winnebago County Circuit Court, sentenced
Boyd to 50 years imprisonment, with 30 years consisting of initial confinement and 20 years of
extended supervision on both charges, to be served concurrently. (App. F).
Boyd appealed to the Wisconsin Court of Appeals, arguing that the court, when granting
Boyd’s request to represent himself, failed to conduct the colloquy required by State v. Klessig,
211 Wis. 2d 194, 564, N.W. 716 (1997); and standby counsel acted beyond the scope of his
authority, denying Boyd his right to represent himself
The State of Wisconsin conceded that the circuit court failed to conduct the Klessig
colloquy, and the Wisconsin Court of Appeals issued a summary order reversing and remanding
for a retrospective
hearing regarding Boyd’s waiver of the right to counsel. {State v. Boyd, No. 2013AP684-CR,
Decided November 6, 2013) (App. E).
6

On March 27, 2014, the circuit court held an evidentiary hearing and denied Boyd’s plea
withdrawal requests. On appeal, Boyd argued that 1) standby counsel’s conduct violated his right
to self-representation; and 2) that the State had failed to establish that his waiver of the right to
counsel was valid. The Wisconsin Court of Appeals affirmed the judgment of conviction in a per
curiam decision on February 26, 2015. {State v. Boyd, No. 2014AP837-CR) (App. D). The
Wisconsin Supreme Court denied Boyd’s timely Petition for Review on June 12, 2015.
On March 16, 2016, Boyd filed a postconviction motion in the circuit court under Wis.
Stat. § 974.06 seeking plea withdrawal. In the motion, Boyd argued that he was improperly
pressured into entering the no contest pleas, in part, by the circuit court’s admittedly erroneous
ruling on the eve of trial that he would get “no latitude” in cross-examining the State’s witnesses.
The circuit court had acknowledged the erroneous ruling at the end of the March 27, 2014
Evidentiary Hearing. (App. 1:76-77). The circuit court denied Boyd’s motion without a hearing
on May 31, 2016.
On appeal, Boyd renewed his claim that the circuit court’s admittedly erroneous “no
latitude” ruling had unduly pressured him into entering his no contest pleas. In a per curiam
decision, the Wisconsin Court of Appeals affirmed the order denying postconviction relief,
holding that the circuit court’s ruling was proper. {State v. Boyd, 2017 Wise. App. LEXIS 620,
Decided August 23, 2017) (App. C). The Wisconsin Supreme Court denied Boyd’s timely
Petition for Review on December 12, 2017.
On February 22, 2018, Boyd filed a Petition for Writ of Habeas Corpus in the United
States District Court for the Eastern District of Wisconsin. In the petition, Boyd raised two
grounds for relief. First, he maintained that standby counsel exceeded the scope of his role,
denying Boyd’s right to self-representation. Specifically, Boyd alleged that standby counsel
7

negotiated the plea deal outside of his presence and then lied to him about the agreement that
was reached; improperly signed the plea questionnaire as Boyd’s attorney, including an
agreement of 20 years on the document that was wholly different than the agreement standby
counsel had conveyed to Boyd and published to the court; and improperly speaking on Boyd’s
behalf about the validity of his pleas. Boyd further alleged that standby counsel intentionally
coerced him to enter the pleas.
Second, Boyd maintained that the circuit court admitted that its “no latitude” ruling on
the eve of trial was made in error and would have been reversed had Boyd proceeded to trial.
Boyd alleged that this ruling improperly pressured him to enter the no contest pleas, as Boyd was
never told that it would have been reversed had he proceeded to trial, rendering his pleas
unknowing, unintelligent, and involuntary.
On October 18, 2019, the United States District Court for the Eastern District of
Wisconsin, the Honorable J.P. Stadtmueller, presiding, denied Boyd’s Petition for a Writ of
Habeas Corpus and denied a Certificate of Appealability. (App. B:9-10).
Boyd filed a notice of appeal from the denial his petition for a writ of habeas corpus and
an application for a certificate of appealability to the United States Court of Appeals for the
Seventh Circuit. On September 30, 2020, the Seventh Circuit denied Boyd’s request for a
certificate of appealability. (App. A).
SUMMARY OF THE ARGUMENT
When Boyd elected to proceed pro se after being denied a new attorney, not only did the
court fail to create a record of the required waiver of the constitutional right to the assistance of
counsel, but immediately provided standby counsel for Boyd without any explanation or
discussion as to what role standby counsel would have in the trial. And who was that standby
8

counsel? It was the very same attorney whose representation precipitated Boyd’s request for new
counsel. Now, Boyd, who requested a new lawyer, was forced to unwillingly proceed pro se with
his only source of guidance: an attorney from whom he was estranged.
To make matters even worse, the former attorney, now standby counsel, and Boyd, were
left to define for themselves an appropriate role for standby counsel with absolutely no direction
as to what that role should be. Not only was this case later reversed and remanded due to the trial
court’s failure to make a record of Boyd’s initial waiver of counsel, but the trial court made
absolutely no effort to establish what standby counsel’s role would be in the case. This is
because the constitutional guidance concerning standby counsel is severely limited.
The acrimonious environment created by this ill-defined standard resulted in the hasty
and very reluctant entry of Boyd’s pleas, revealing the importance of establishing more defined
guidelines for both the appointment of standby counsel and the role and obligations of standby
counsel in the proceedings. This is especially true, whereas here, the record shows that Wallace,
after being appointed as standby counsel, continued to act as Boyd’s attorney, pressuring Boyd to
enter pleas against his stated wishes.
These are significant constitutional violations that warranted the reversal of Boyd’s
conviction at the District Court level when Boyd petitioned for a Writ of Habeas Corpus.
Moreover, this case warranted a Certificate of Appealability from the Seventh Circuit Court of
Appeals, as these issues are clearly debatable amongst reasonable jurists and require further
guidance from the Supreme Court.

9

ARGUMENT
I. Boyd’s Sixth Amendment right to self-representation was violated when the trial
court failed to define the role of standby counsel on the record, permitting standby
counsel to usurp Boyd’s autonomy which resulted in an involuntary plea.
This Court has made it clear that the right to self-representation is implicit in the Sixth
Amendment right to counsel: “Although not stated in the Amendment in so many words, the
right to self-representation - to make one’s own defense personally - is thus necessarily
implied by the structure of the Amendment.” Faretta v. California, 422 U.S. 806, 819
(1975). The right to self-representation means that a defendant may not, consistent with the
Sixth Amendment, have counsel forced upon him against his wishes. “To thrust counsel upon
the accused, against his considered wish, thus violates the logic of the Amendment.” Id. at
820. This Court’s jurisprudence in this area recognizes a long history in Britain and the
colonies where self-representation for serious crimes was commonplace. Id. at 826-827.
This Court has also recognized that the actions of standby counsel may, under some
circumstances, violate the right to self-representation. McKaskle v. Wiggins, 465 U.S. 168,
177 (1984). The Court stated that the right to self-representation “must impose some limits
on the extent of standby counsel’s unsolicited participation.” Id. In general, “In determining
whether a defendant’s Faretta rights have been respected, the primary focus must be on
whether the defendant had a fair chance to present his case in his own way.” Id.
The problem here is that McKaskle is the only case in which this Court has examined the
legal standards applicable to standby counsels’ actions. Although the opinion contains
general language discussing the overarching relationship between the presence of standby
counsel and the right to self-representation, the bulk of the Court’s discussion focuses on
standby counsels’ actions during a trial, and thus does not provide any guidance to courts,
10

lawyers, or defendants for the appointment of standby counsel and the role of the designated
attorney.
Here, the trial court failed to make any attempt whatsoever to clarify the role of standby
counsel through an appropriate colloquy on the record with Boyd, clarifying for the record
that both Wallace and Boyd understood the role standby counsel was to play in the case. In
his first motion to withdraw his plea, Boyd asserted that Wallace overstepped his role as
standby counsel when he 1.) approached Boyd on the morning of trial and continued to
pressure him to enter a plea, despite the fact that this behavior was exactly what Boyd had
complained of in his previous motion for the appointment of new counsel (See App. J: 2-3);
2.) filled out the plea questionnaire with an agreement wholly different from that published to
the court, and signed it as Boyd’s attorney; (See App. G:2); 3.) lied to Boyd and his mother
about the terms of the plea agreement Wallace had solely negotiated (See App. L:2); and 4.)
repeatedly spoke on Boyd’s behalf during the proceedings rather than allowing Boyd to
control his own defense. (App. L:2). In McKaskle, this Court disapproved of the fact that
standby counsel infrequently interrupted the defendant, made unsolicited comments, and
occasionally used profanity. Id. at 185-86. Such improper conduct would not have occurred
had the trial court clarified the role of standby counsel in protection of Boyd’s right to self­
representation.
Trial courts have little, if any, guidance when exercising their discretion in determining
who will be appointed as standby counsel and what standby counsel’s duties will be. Courts
across the country have typically employed three models for standby counsel: 1) “idle”
standby counsel; 2) “at the ready” standby counsel; and 3) hybrid representation. See Megan
H. Morgan, Standby Me: Self-Representation and Standby Counsel in a Capital Case, 16
11

Cap. Def. J. 367, 377-79 (2004)(explaining the three general models of standby counsel used
by U.S. courts); see also John H. Pearson, Mandatory Advisory Counsel for Pro Se
Defendants: Maintaining Fairness in the Criminal Trial, 72 Cal. L Rev. 697, 713
(1984)(recognizing three models of standby counsel). Under the “idle” standby counsel
model, standby counsel maintains a passive role, assuming trial obligations only when the
defendant no longer wishes to proceed pro se or when the trial court will no longer allow the
defendant to represent himself. Morgan, supra, at 377-78. In the “at the ready” model,
standby counsel prepares for the case each day under the assumption that it is the last day the
defendant will represent himself. With this model, standby counsel is a resource for the
defendant, available to answer questions and help the defendant navigate procedural barriers,
but only stepping in once the defendant ends self-representation. Id. at 379. Finally, under the
hybrid representation model, the pro se defendant and standby counsel actively and
concurrently participate in all aspects of the trial. Id. at 378-79.
Here, neither Boyd nor standby counsel received any guidance from the circuit court
regarding what role standby counsel should play. In fact, in addressing the issue, the extent of
the court’s discussion on the matter consisted of the following:
THE DEFENDANT: I would like to completely represent myself on this case.
THE COURT: Okay, and Mr. Wallace will be at your side for standby counsel.
(App. H:12).
Further, when the State’s Attorney, Ms. Paider, asked the court if it was “going to do any
sort of finding on the record,” the court simply stated:
THE COURT: I will find, based upon my experiences with him, that he is competent
to represent himself. He seems to know all the games to try to play, so I guess he can
represent himself.
12

(App. H:14).
The trial court never even attempted to clarify standby counsel’s role for Boyd or
Wallace despite the fact that Wallace should not have been Boyd’s standby counsel in the
first place. Boyd’s allegations against Wallace were serious, yet Wallace remained involved
in this case. As a result, standby counsel was permitted to take actions on the eve of trial, the
morning of trial, and in the plea bargaining process that were in direct conflict with Boyd’s
clear request to represent himself without Wallace’s involvement in the matters. Standby
counsel was permitted to continue pressuring Boyd to enter a plea even after Boyd had
complained of the attorney doing just that; lie to both Boyd and his mother about the actual
terms of the plea agreement, including falsifying the plea questionnaire; and speak instead of
Boyd on important matters. Simply put, standby counsel was permitted to manipulate Boyd
into entering a plea that was clearly unknowing, unintelligent, and involuntary. These actions
clearly contradict this Court’s holding in McKaskle that a pro se defendant must be able to
retain actual and perceived control of his or her defense. Id. at 178.
It is precisely for this reason that the trial court was obligated to explain on the record the
scope and role of standby counsel in this case. Such a discussion on the record is necessary to
ensure that counsel and, more importantly, the defendant have knowledge and understanding
of standby counsel’s role in a particular defendant’s case. A discussion on the record is
necessary to ensure a defendant’s Faretta right to self-representation is protected and to
avoid the very ambiguity and problematic actions that brought this case before this Court.
Moreover, colloquies on the record are generally required by both this Court and several
State Supreme Courts in order to protect a defendant who is waiving a right. For example,
colloquies are required when a defendant enters a plea of guilty or no contest, waiving the
13

right to trial, see Boykin v. Alabama, 395 U.S. 238 (1969), or when a defendant waives his
right to counsel and chooses to represent himself, see Faretta, 422 U.S. 806; Klessig, 211
Wis. 2d 194. The West Virginia Supreme Court has found that such a process is necessary to
protect a defendant’s right to self-representation. See State v. Powers, 211 W.Va. 116, 563
S.E.2d 781 (2001)(adopting process requiring trial courts to advise both counsel and the
defendant, on the record, of the specific duties of standby counsel when appointed).
In all of these instances, the purpose of preserving such discussions on the record is to
ensure that a defendant understands his right, understands that he is waiving this right, and
understands the likely consequences of this choice. Such concerns are at play here, where
Boyd waived his right to counsel, but then the interference of standby counsel undermined
Boyd’s corresponding right to represent himself.
It is worth noting that in McKaskle, this Court did not simply rely on

Faretta's

recognition that standby counsel may be appropriate in some circumstances. See McKaskle,
465 U.S. at 178-79. Instead, the Court expressly examined standby counsel’s precise role in
the case and balanced the defendant’s right to self-representation against societal and
institutional interests in ensuring fair adversarial proceedings. Id. at 183-84. The McKaskle
analysis thereby demonstrates that it is consistent with Faretta for a court to consider the
competing interests in determining the proper scope of standby counsel’s role.
On the morning of trial, while it appeared as though the trial court actually intended to
speak with Boyd about his decision to represent himself, standby counsel’s persistence in
manipulating Boyd into a plea was so extreme that standby counsel actually interrupted the
trial court’s in order to further pursue a plea agreement.
THE COURT: ...Before we start, Mr. Boyd, I just want to go over with you once
14

again your request to represent yourself in this matter.
MR. WALLACE: One moment, Your Honor.
THE COURT: Go ahead.
(Discussion held off the record between Mr. Wallace and the defendant.)
MR. WALLACE: If I could have five minutes, Your Honor, to speak with the
district attorney and discuss maybe a resolution, I would be willing to do so.
THE COURT: Take five minutes.
(App. 1:3).
The trial court never returned to its attempted inquiry with Boyd.
Had the trial court provided the appropriate standby counsel instruction, standby counsel
would not have been able to infringe upon Boyd’s autonomy and ultimately his right of self­
representation. Instead, Boyd and counsel, and the trial court, would have known that
standby counsel’s role in this case was to act solely as an advisor, there to help Boyd
navigate the criminal system if and when Boyd explicitly askedfor such guidance.
The American Bar Association has stated in its standards for standby counsel that such
standby counsel “should not actively participate in the conduct of the defense unless
requested by the accused or insofar as directed to do so by the court.” ABA Standards for
Criminal Justice 4-3.9 (b)(emphasis added). Here, standby counsel overstepped those bounds
multiple times and in multiple ways. This usurpation was further exacerbated by the fact that
standby counsel had previously acted as Boyd’s trial counsel. Because standby counsel had
previously been defense counsel, and because neither the court nor standby counsel ever
clarified for Boyd what the scope of standby counsel’s assistance would be, Boyd was unable
to act with full autonomy in his representation.
Because standby counsel usurped Boyd’s authority in the plea negotiation process and the
decision of whether to go to trial, the trial court, the district court, and the Seventh Circuit
15

Court of Appeals, should have each, in their own turn, found that Boyd’s plea was not
entered knowingly, voluntarily, and intelligently, and reversed his conviction.
Given all of these factors, the district court’s decision and the Seventh Circuit Court of
Appeals’ order denying Boyd a certificate of appealability were not a reasoned application of
law to a logical interpretation of the facts of record. When a habeas applicant seeks
permission to initiate appellate review of the dismissal of his petition, the court of appeals
should limit its examination to a threshold inquiry into the underlying merit of his claims.
Slack v. McDaniel, 529 U.S. 473, 481, 120 S.Ct. 1595, 146 L.Ed.2d 542 (2000). A prisoner
seeking a COA need only demonstrate “a substantial showing of the denial of a constitutional
right.” 28 U.S.C. § 2253 (c)(2). A petitioner satisfies this standard by demonstrating that
jurists of reason could disagree with the district court’s resolution of his constitutional claims
or that jurists could conclude the issues presented are adequate to deserve encouragement to
proceed further. Slack, supra, at 484, 120 S.Ct. 1595. Applying these principles to Boyd’s
petition in the district court and his application to the Seventh Circuit Court of Appeals, it is
clear that a COA should have issued. Both lower court decisions were erroneous and should
have been reversed pursuant to this Court’s holding in McKaskle, as well as the need for
constitutional guidance from this Court on the appointment and role of standby counsel.
As a result of the contradictory descriptions of the responsibilities of standby counsel
found in state and federal case law, and the lack thereof in United States Supreme Court case
law, the role that standby counsel plays at a pro se defendant’s trial currently depends on
where the trial takes place, what judge presides over the trial, and the disposition of that
judge on that particular day. Even with the best research, pro se defendants in future cases

16

have no way of knowing what can be expected of standby counsel. This disparity creates a
general state of uncertainty amongst pro se defendants nationwide.
Boyd’s case presents the United States Supreme Court with the perfect opportunity to
address the disparity and uncertainty of the proper role of standby counsel. A thorough
definition of standby counsel’s role and an on the record colloquy would enable pro se
defendants, attorneys appointed to act as standby counsel, and trial judges to better
understand what is expected of standby counsel, thereby increasing judicial consistency
across the United States.
II. The District Court and the Seventh Circuit Court of Appeals should have issued a
COA because the requirements of § 2253 were satisfied.
Before an appeal may be entertained, a prisoner who was denied habeas relief in the
district court must first seek and obtain a COA from a circuit justice or judge. As a result,
until a COA has been issued federal courts of appeals lack jurisdiction to rule on the merits
of appeals from habeas petitioners. Under the controlling standard, a petitioner must “sho[w]
that reasonable jurists could debate whether (or, for that matter, agree that) the petition
should have been resolved in a different manner or that the issues presented were ‘adequate
to deserve encouragement to proceed further.’” Slack, 529 U.S. at 484, 120 S.Ct. 1595
(quoting Barefoot v Estelle, 463 U.S. 880, 893, 103 S.Ct. 3383 (1983)).
The COA determination under § 2253 (c) requires an overview of the claims in the
habeas petition and a general assessment of their merits. Miller-El v. Cockrell, 537 U.S. 322,
336-37 (2003). This standard is straightforward: The petitioner must demonstrate that
reasonable jurists would find the district court’s assessment of the constitutional claims
debatable or wrong. Slack, 529 U.S. at 484, 120 S.Ct. 1595.
17

Here, both the District Court and the Seventh Circuit Court of Appeals application of
AEDPA deference, as stated in §§ 2254(d)(2) and (e)(1), to Boyd’s McKaskle claim was
wrong or, in the alternative, easily debatable amongst jurists of reason.
A. Boyd’s standby counsel claim warranted the issuance of a COA.
Boyd argued in the District Court that the manner of appointing Wallace as standby
counsel, as well as standby counsels’ actions violated his Sixth Amendment right to selfrepresentation. Boyd argued that Wallace, as standby counsel, continued to repeatedly
pressure Boyd to enter a plea against his wishes, despite Boyd’s repeated protestations of
innocence and his desire to go to trial, and this, after Boyd had already filed a motion for the
appointment of new counsel complaining of this very behavior from Wallace. Boyd also
argued that Wallace engaged in plea negotiations outside of Boyd’s presence without Boyd’s
express or implied consent, and that Wallace further lied to Boyd about the terms of the plea
agreement and signed the plea questionnaire as Boyd’s attorney. (App.N:10).
In analyzing this claim, the District Court merely copied and pasted the Wisconsin Court
of Appeals analysis of Wallace’s appointment as standby counsel, scope of involvement, and
participation in the plea negotiation process, and adopted that discussion as its own. (App.
B:6-7). The District Court wrote, “Having concluded that Wallace’s presence as standby
counsel was constitutional and appropriately defined, the Wisconsin Court of Appeals
assessed whether Wallace’s conduct during the plea hearing violated Boyd’s right to self­
representation” (App. B:6). However, a simple review of the Wisconsin Court of Appeals
decision clearly reveals that the role of standby counsel was not “defined” in any way, shape,
or form by that Court. Nor does the District Court say what that role was supposedly defined
to be. Both the Wisconsin Court of Appeals and the District Court blatantly lied in their
18

decision regarding this issue. Neither Court defined, let alone discussed, the proper role of
standby counsel. (App. B:6-7; App. D:6-7).
The problem is that Boyd specifically tried to inquire with the circuit court about what he
would and wouldn’t be permitted to do as a pro se defendant, but those questions were not
answered due to the acrimonious environment created by the circuit court. The Wisconsin
Court of Appeals discussion of this issue is completely incorrect and, thus, so is the District
Court’s acceptance of that discussion. For example, Boyd asked whether he would be able to
question the witnesses himself. (App. H:13). But before the circuit court could answer
Boyd’s question, Ms. Paider, interrupted to ask that Boyd be reminded that he would be
bound by the rules of evidence. The circuit court obliged Ms. Paider’s request but did not
return to Boyd’s question. (App. H: 13-14). Yet the Wisconsin Court of Appeals falsely stated
that Boyd’s questions were asked and answered:
. .the record demonstrates that Boyd did ask for and receive guidance about the
scope of what he would do and what Wallace would do.”
(App. D:7). As shown above, Boyd’s questions clearly were not answered.
Later on, Boyd requested some latitude in questioning one of the State’s witnesses.
However, the court, itself, refused to allow Boyd to explain the nature of his request for
latitude, and simply ruled, “You will get no latitude.” (App. H:15). Standby counsel
interrupted the court, saying, “He’s requesting some latitude in questioning...” But the court
cut him off, as well, and reaffirmed it’s no latitude ruling. (App. H:15). Here again, Boyd’s
request for guidance was clearly cut short. The Seventh Circuit Court of Appeals has
consistently held that a witness’s motivation in testifying is always relevant, and “parties
should be granted reasonable latitude in cross-examining target witnesses.” United States v
Manske, 186 F.3d 770, 777 (7the Cir. 1999); United States v. Thompson, 359 F.3d 470, 479
19

(7th Cir. 2004). While Boyd’s request was clearly on point with this standard, the circuit
court’s no latitude ruling was inconsistent with the governing case law. Most notably,
however, is the fact that the circuit court later admitted to this error, as will be demonstrated
below.
Here again, the District Court simply copied and pasted the Wisconsin Court of Appeals
decision, and adopted that decision as its own. The Wisconsin Court of Appeals and the
District Court reasoned that the circuit court judge was “simply impressing upon Boyd the
need to follow the rules of evidence while representing himself.” (App. B:8). While the
District Court stated that there had been no unreasonable determination of the facts, neither
the Wisconsin Court of Appeals or the District Court ever considered Boyd’s claim showing
the circuit court’s own admission of its error at the March 2014 Evidentiary Hearing:
THE COURT: I just remember that the day before, when he wanted to represent
himself and he wanted the court to give him more latitude and I told him I
wouldn’t the day before and—I did some research on that, and he was exactly
right. So he obviously researched it because the case law says exactly what he
said, for latitude. So the next day, when he comes in, I was going to say you have
more latitude while we’re doing the trial, but then he wanted to take a plea.
(App. 1:76).
Neither the Wisconsin Court of Appeals nor the District Court even attempted to explain
how this clear admission of error from the circuit court could possibly square with their
completely contradictory interpretation of the ruling. If the circuit court was “simply
impressing upon Boyd the need to follow the rules of evidence while representing himself,”
as the District Court claimed, then why would the circuit court admit that, after researching
Boyd’s request for latitude, that Boyd was in fact right and that the ruling would be reversed
had Boyd proceeded to trial? The circuit court’s own acknowledgment of its erroneous ruling
20

clearly contradicts what both appellate courts claimed to be the case. Neither the Wisconsin
Court of Appeals nor the District Court even acknowledged the statement made by the circuit
court in either of their decisions. Incorporating it would be difficult. (See App. B; App. D).
The District Court, in its decision, wrote, “The transcript is by no means exemplary of an
ideal exchange, but it does reflect that Boyd would be allowed to cross-examine the victim
witness and to defend himself within the bounds of the law.” (App. B:9). Here again, this
conclusion by the District Court directly contradicts the circuit court’s own statements at the
evidentiary hearing, as well as the record, itself, as shown above. How could Boyd crossexamine the victim witness within the bounds of the law when the circuit court openly
acknowledged, on the record, that the “no latitude” ruling was inconsistent with the
governing case law? Further, Boyd was never told that the circuit court would have reversed
that ruling had he proceeded to trial. (App. 1:76-77). Neither the court nor standby counsel
ever informed Boyd of this critical factor. Id. Thus, the District Court’s decision on this
matter simply cannot be reconciled with the abundant precedent establishing that defendants
are entitled to reasonable latitude in cross-examining witnesses in certain areas, nor with the
record clearly contradicting its’ own decision on the matter. Here, the ordinary rules of
evidence had to bow to Boyd’s Sixth Amendment rights. Davis v. Alaska, 415 U.S. 308, 319
(1974); Delaware v. Van Arsdall, 475 U.S. 673, 679 (1986); Olden v. Kentucky, 488 U.S.
227, 232 (1988); Michigan v. Lucas, 500 U.S. 145 (1991). What was standby counsel’s
obligation to Boyd when the confusion surrounding this ruling was taking place? It is clear
that reasonable jurists could debate whether the petition should have been resolved in a
different manner or that the issues presented were adequate to deserve encouragement to
proceed further. Miller-El, 537, U.S. 322, 336 (2003)(internal citations omitted). Thus, the
21

Seventh Circuit Court of Appeals should have issued a certificate of appealability in this
case.
REASONS FOR GRANTING THE PETITION
This Court should grant this petition because there is a great need for constitutional
guidance from this court when it comes to the appointment of standby counsel. This need is
even greater when, as in this case, the attorney who is appointed as standby counsel is the
very same attorney whom the defendant has become estranged from. Currently there is no
guidance from this court directing lower courts to engage the defendant or counsel in any
type of inquiry regarding the role that standby counsel will play in any given case. This
absence of case law from this Court leaves future defendants and attorneys to figure it out for
themselves. The use of standby counsel is not an uncommon practice when a defendant elects
to proceed pro se. In fact, the appointment of standby counsel seems to be the preferred
practice. Thus, this Court should grant this petition to provide guidance to the lower courts
on how to appoint standby counsel and how to define for defendants and counsel the role that
standby counsel can or will provide in the case.
CONCLUSION
Boyd’s plea was not entered knowingly, voluntarily, and intelligently due to the
acrimonious environment that was created by the lack of constitutional guidance from this
Court regarding the appointment and role of standby counsel. Because the Seventh Circuit
Court of Appeals erred in denying Boyd a COA, reasonable jurists could clearly debate the
issues presented, and these issues need further development from this Court, this petition for
certiorari should be granted.

22

Respectfully submitted on this

4

day of

a

roan

,2021.

Vincent E. Boyd—
Petitioner, pro se
P.O.Box 19033
Green Bay, WI 54307

CERTIFICATION AS TO FORM AND LENGTH
I hereby certify that this brief conforms to the rules contained in SCR 33.2 and 34 for a
brief and appendix produced with a proportional serif font. The length of the brief is 6,269
words.

Vincent E. Boyd
Petitioner, pro se

CERTIFICATION AS TO APPENDICES
I hereby certify that filed with this brief, either as a separate document or as a part of this
brief, is an appendix that complies with SCR 34 and that contains: (1) a table of contents; (2)
relevant trial court record entries; (3) the findings or opinion of the lower court; and (4) portions
of the record essential to an understanding of the issues raised, including oral or written rulings
or decisions showing the lower court’s reasoning regarding those issues.
I further certify that if the record is required by law to be confidential, the portions of the
record included in the appendix are reproduced using first names and last initials instead of full
names of persons, specifically including juveniles and parents of juveniles, with a notation that
the portions of the record have so reproduced to preserve confidentiality and with appropriate
references to the record.
Vincent E. Boyd
23

Table of Appendices
Order of United States Court of Appeals
for the Seventh Circuit, September 30, 2020
Boyd v. Radtke, 2020 WL6481790.....................

App. A

Order of United States District Court
Eastern District of Wisconsin, October 18, 2019
Boyd v. Eckstein WL5298526............................

App. B

Opinion and Order of Wisconsin Court of Appeals, August 23, 2017
State v. Boyd, 2017 Wise. App. LEXIS 620.......................................

App. C

Opinion and Order of Wisconsin Court of Appeals, February 26, 2015
State v. Boyd, Appeal No. 2014AP837 .................................................

App. D

Opinion and Order of Wisconsin Court of Appeals, November 6, 2013
State v. Boyd, Appeal No. 2013AP684 .................................................

App. E

Judgment of Conviction

App. F

Plea Questionnaire

App. G

Final Pre-Trial Conference Transcript,
dated March 26, 2012 ........................

App. H

Evidentiary Hearing Transcript,
pgs. 74-77, March 27, 2014 .....

App. I

Motion for Appointment of New Counsel,
dated March 23, 2012 ...............................

App. J

Plea Hearing Transcript,
dated March 27, 2012

App. K

Defendant’s Motion to Withdraw Plea and Appoint New Counsel,
filed May 8, 2012...........................................................................

App. L

Supplement to Defendant’s Motion to Withdraw Guilty/No Contest Plea,
dated June 6, 2012.....................................................................................

App. M

24

X

Brief in Support of Petition for Writ of Habeas Corpus,
dated August 31, 2018...................................................

25

App. N

